August 27, 2021
Scott S. Harris, Clerk
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543-0001
Re: Terrance Miles v. Scott Jordan, Warden
No. 21-63
Dear Mr. Harris:
The Warden respectfully requests an extension of 30 days to file his brief in
opposition to the petition for writ of certiorari. Counsel for the Warden has nonrefundable travel/vacation plans scheduled from September 13 through September
26, 2021. These plans were booked several months prior to receiving the Courts
order on August 23, 2021 ordering a response to the petition for a writ of certiorari.
Counsel requires the additional time to complete the brief in opposition.
The Warden’s brief in opposition is due September 22, 2021. The 30-day extension
would make it due Friday, October 22, 2021.
Counsel of record for the Petitioner, Hon. C. Kevin Marshall, has stated he has no
opposition to this request.
Respectfully Submitted,
/s/ Thomas A. Van De Rostyne
Thomas A. Van De Rostyne
Assistant Attorney General
cc: Hon. C. Kevin Marshall

